<html>
<title> - CAMPUS SEXUAL ASSAULT: THE ROLES AND RESPONSIBILITIES OF LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 113-894]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-894

                         CAMPUS SEXUAL ASSAULT:
                     THE ROLES AND RESPONSIBILITIES
                           OF LAW ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON CRIME AND TERRORISM

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2014

                               __________

                          Serial No. J-113-76

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-426 PDF                WASHINGTON : 2018                 
















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

                  Subcommittee on Crime and Terrorism

               SHELDON WHITEHOUSE, Rhode Island, Chairman
DIANNE FEINSTEIN, California         LINDSEY GRAHAM, South Carolina, 
CHUCK SCHUMER, New York                  Ranking Member
DICK DURBIN, Illinois                TED CRUZ, Texas
AMY KLOBUCHAR, Minnesota             JEFF SESSIONS, Alabama
                                     MICHAEL S. LEE, Utah
                 Ayo Griffin, Democratic Chief Counsel
                David Glaccum, Republican Chief Counsel

































                            C O N T E N T S

                              ----------                              

                      DECEMBER 9, 2014, 10:04 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont,
    prepared statement...........................................    61
Schumer, Hon. Chuck, a U.S. Senator from the State of New York...     4
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1

                               WITNESSES

Witness List.....................................................    33
Fleischer, Angela, Assistant Director, Student Support and 
  Intervention for Confidential Advising, Southern Oregon 
  University, Ashland, Oregon....................................    10
    prepared statement...........................................    44
Gillibrand, Hon. Kirsten, a U.S. Senator from the State of New 
  York...........................................................     6
    prepared statement...........................................    34
McCaskill, Hon. Claire, a U.S. Senator from the State of Missouri     4
Langhammer, Peg, Executive Director, Day One, Providence, Rhode 
  Island.........................................................    16
    prepared statement...........................................    58
Zoner, Kathy R., Chief of Police, Cornell University Police, 
  Ithaca, New York...............................................    13
    prepared statement...........................................    48

                               QUESTIONS

Questions submitted to Angela Fleischer by Senator Franken.......    63
Questions submitted to Angela Fleischer by Senator Grassley......    66
Questions submitted to Peg Langhammer by Senator Franken.........    64
Questions submitted to Peg Langhammer by Senator Grassley........    67
Questions submitted to Chief Kathy R. Zoner by Senator Franken...    65
Questions submitted to Chief Kathy R. Zoner by Senator Grassley..    68

                                ANSWERS

Responses of Angela Fleischer to questions submitted by Senator 
  Franken........................................................    69
Responses of Angela Fleischer to questions submitted by Senator 
  Grassley.......................................................    71
[Note: At the time of printing, the Committee had not received 
  responses from Peg Langhammer.]
[Note: At the time of printing, the Committee had not received 
  responses from Chief Kathy R. Zoner.]

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Beloof, Douglas Evan, ``The Third Model of Criminal Process: The 
  Victim Participation Model,'' Utah Law Review, September 13, 
  1999, article..................................................    74
Cantalupo, Nancy Chi, Esq., Researcher and Author, Georgetown 
  University Law Center, Washington, DC, statement...............   118
Fleischer, Angela, Assistant Director, Student Support and 
  Intervention for Confidential Advising, Southern Oregon 
  University, Ashland, Oregon,
  supplemental statement.........................................   136
Know Your IX, December 16, 2014, letter and attachment...........   137
Lonsway, Kimberly A., and Joanne Archambault, ``The `Justice Gap' 
  for Sexual Assault Cases: Future Directions for Research and 
  Reform,'' SAGE Journals, March 20, 2012 research article.......   144
Renda, Emily, Project Coordinator for Sexual Misconduct, 
  University of Virginia, Charlottesville, Virginia, letter......   168

 
                         CAMPUS SEXUAL ASSAULT:
                     THE ROLES AND RESPONSIBILITIES
                           OF LAW ENFORCEMENT

                              ----------                              


                       TUESDAY, DECEMBER 9, 2014

                      United States Senate,
               Subcommittee on Crime and Terrorism,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, Chairman of the Subcommittee, presiding.
    Present: Senators Whitehouse, Schumer, Klobuchar, Franken, 
Blumenthal, and Grassley.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE,
         A U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Chairman Whitehouse. The hearing will please come to order. 
Let me welcome Senator Schumer and Senator Grassley and Senator 
McCaskill. We will be joined shortly by Senator Gillibrand as 
well to make some brief remarks and Senator Graham is expected 
to join us. He is the Ranking Member on this Committee.
    Senators McCaskill and Gillibrand have worked tirelessly to 
shed light on the scourge of sexual violence both on our 
college campuses and in our military. Senator McCaskill and 
Senator Heller are the lead cosponsors and worked very, very 
hard to develop along with Senators Gillibrand, Grassley and 
others, legislation that makes comprehensive changes in the 
area of campus sexual assault.
    We hope this hearing will help inform their work. I would 
like to acknowledge, as well, the commitment of Chairman Leahy, 
who last year shepherded the Violence Against Women Act through 
this Committee and into law. As you know, VAWA requires 
colleges to be more transparent about sexual assaults and other 
offenses committed on campus.
    In my home State, Attorney General Peter Kilmartin and 
Rhode Island's universities are working with me on developing 
best practices and advising me in these legislative efforts. I 
want to express my appreciation to our very robust higher 
education community in Rhode Island and to our Attorney 
General.
    Finally, I would like to thank all of our witnesses today 
for joining us. I know that you work day in and day out to help 
survivors who are seeking closure and justice. I look forward 
to hearing more about your efforts.
    Campus sexual assault is not a new phenomenon. The last few 
years have shed light on just how pervasive it has become, with 
some estimates suggesting that as many as one in five women may 
experience sexual violence in college. Reports of sex offenses 
on college campuses rose 50 percent from 2009 to 2012 according 
to Federal data. The vast majority of offenses, up to 90 
percent, are believed to go unreported.
    This issue has risen from whispered hallway conversations 
to an impassioned national debate. It has rightly become a 
priority for university board rooms, for police departments, 
and even for the White House with its dedicated task force and 
its ``It's On Us'' campaign.
    Innovations in the private sector include products to 
prevent surreptitious drugging and video games and smartphone 
apps designed to protect women and encourage bystanders to step 
in and prevent situations from developing into crimes. Senators 
McCaskill and Gillibrand's Campus Accountability and Safety Act 
proposes an array of reforms in institutions of higher 
learning.
    The purpose of today's hearing is narrower, the role of law 
enforcement in response to sexual assaults on campus. As a 
former United States Attorney and as the Attorney General for 
my State, I am concerned that law enforcement is being 
marginalized when it comes to the crime of campus sexual 
assault. I am concerned that the specter of flawed law 
enforcement overshadows the harm of marginalized law 
enforcement.
    Anything can be done badly, but law enforcement done right 
makes sure forensic and electronic evidence is properly 
collected and preserved. It empowers the victim and informs her 
of her continuing power through the stages of investigation and 
prosecution. It brings professionalism and tools like subpoenas 
and grand jury in the place of amateur university 
investigations.
    It eludes the built-in conflict of interest of a university 
that wants the sexual assault problem minimized or hushed and 
it sends an important societal signal when after a rape the 
crime scene has police tape up and evidence vans and officers 
taking statements, a signal that what happened was serious. At 
its best, law enforcement response is victim-centered and well 
coordinated with medical, mental health and advocacy 
professionals.
    When a rape victim is steered away from law enforcement 
based on uninformed choices about proceeding or because the 
relationship between the university and law enforcement is so 
weak that contacting law enforcement is a step into a dark 
unknown and the victim later loses the chance for justice, she 
has been victimized all over again. The student has the right 
to know that delays in opening an investigation and in 
collecting evidence could mean the disappearance of evidence 
altogether and could open up devastating questioning by a 
future defense attorney.
    Until we are willing to put more information and control 
right away in the hands of victims, they simply will not trust 
the system enough to report sexual assaults in the first place. 
We know this, sadly, from experience. Until we find a way to 
introduce victims to police officers before they have to make 
the fateful decision to file criminal charges, uninformed fear 
and uncertainty will remain a crippling barrier.
    And when there is no law enforcement response at all, that 
silence is deafening and sends the message that what happened 
to the victim did not matter. Unfortunately this message fits 
to neatly with the pressure school administrators may feel to 
downplay campus sexual violence.
    Add in the new evidence that most college sexual assaults 
are committed by men who are serial offenders and thus a threat 
to public safety, that should make it an even higher priority 
for us as lawmakers, law enforcers and school administrators to 
create systems that will increase reporting, root out those who 
would commit such acts and see that they are brought to 
justice. Marginalizing the men and women who are trained 
professionals in the task of investigation is a move in the 
wrong direction. If we do not increase and improve the role of 
the criminal justice system in these cases, victims will pay 
the price.
    I say, ``and improve,'' because equally important to early 
law enforcement involvement in these crimes is the quality of 
the law enforcement response. As I said, anything can be done 
badly but there are best practices out there and I look forward 
to hearing from today's witnesses about some of those best 
practices and about how we as Federal legislators might be able 
to advance the goals of public safety and dignity and justice 
for survivors.
    As we begin this hearing, let me thank my Ranking Member 
for his courtesy during the time when I have been Chairman. I 
look forward to continuing the bipartisan spirit when Chairman 
Graham takes over in the next Congress.
    Senator Grassley, do you have any opening remarks you would 
care to make?

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. As you know, I am not a Member of the 
Subcommittee. I guess I am an ex officio Member. I have an 
interest in this issue as I am a cosponsor of the bill. I do 
not understand the sensitivities that universities have about 
the rape on campus. I think a crime of rape off campus or a 
crime of rape on campus ought to be treated the same way and 
the sooner it is treated the same way, the sooner that the 
message is going to get out that you cannot get away with 
something on a campus that you could not get away with 
someplace else.
    I hope that there is a real effort in the next Congress to 
work on this bill very seriously and move it along. And I 
appreciate the remarks of the Chairman. They would be things 
that I would associate myself with at this point, but I think 
that it is high time to make sure that a crime is a crime where 
ever it is committed and treated the same way and when it is 
treated universally the same way, we will have less rape on 
campuses. Thank you.
    Chairman Whitehouse. Thank you, Senator Grassley. I think 
it is significant that the incoming Chairman of the Committee 
made that point and made that statement. So I thank you sir.
    I will turn now to Senator Schumer.

            OPENING STATEMENT OF HON. CHUCK SCHUMER,
           A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. I will be brief. I want to thank you, Mr. 
Chairman, for holding this hearing and my colleagues for being 
here. I want to thank two of my dearest friends in the Senate 
for leading the charge here, Senators McCaskill and Gillibrand. 
I want to wish Senator Gillibrand a happy birthday. Today is 
her birthday.
    But on a more serious note, I want to thank both of them 
and all of the others for bringing this whole issue to light. 
This has been a sort of dirty little secret for a long time on 
college campuses, that women were abused and then afraid to 
come forward. And now because of the efforts of the two 
Senators that we are going to hear testify and so many others, 
that is not happening anymore.
    All you have to do is talk to people, relatives, children 
of friends, women who were on college campuses and ask them how 
serious is this? Most of them say it is far more serious than 
you know. And so to get to the bottom of this and do something 
about it is something that we can do in a bipartisan way.
    We can show that government works and works well when we 
put our minds together and come up with careful, rational but 
strong solutions and I look forward to hearing the testimony 
and working with the sponsors of this legislation to make that 
happen.
    Thank you Mr. Chairman.
    Chairman Whitehouse. Thank you, Senator Schumer. Senator 
Franken, anything?
    Senator Franken. Thank you. I am just looking forward to 
hearing from my colleagues and then from the witnesses.
    Chairman Whitehouse. Terrific. Well let us begin with 
Senator McCaskill who is the lead cosponsor of this legislation 
along with Senator Heller. We appreciate very much your efforts 
and your commitment in this area and are eager to hear from 
you.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL,
           A U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator McCaskill. Thank you, Senator Whitehouse and thank 
you for holding this hearing. First, I want to echo the 
birthday wishes to my friend and colleague, Kirsten Gillibrand, 
and I want to thank her for her passion and her focus on this 
issue. When we are united, we are--I think an objective 
evaluation would say that we are a force to be reckoned with 
and we are united on this effort along with Senator Heller and 
Senator Grassley.
    I want to particularly compliment Senator Grassley and his 
top-notch staff who have worked with us tirelessly to put 
together what is truly a bipartisan bill. There has been a lot 
of give-and-take that is already gone into the development of 
this legislation and I know all of us look forward to 
introducing it and moving forward for its passage next year.
    In that vein, it is important that we hear from this 
Committee as to your input as to how we can make this bill even 
better. And I know this hearing will be helpful in that regard.
    I want to say that this is complemented, first, because we 
are dealing with two systems. We are dealing with a Title IX 
system and we are dealing with a criminal justice system. The 
two systems have different goals. The Title IX system, while it 
is there for the redress of victims, it is there primarily to 
force college campuses to provide a safe and crime-free and 
discrimination-free campus. That is the purpose behind Title 
IX.
    The criminal justice system, its purpose is in fact to hold 
perpetrators accountable and put them in prison. When you 
combine those two systems, it is confusing and complicated. So 
what we do has to strengthen Title IX and hopefully provide 
more victims with the reassurance that they need, the survivors 
the reassurance they need, that they can, in fact, avail 
themselves of the justice that is there in the criminal justice 
system.
    Right now because the criminal justice system has been very 
bad, in fact, much worse than the military and much worse than 
college campuses in terms of addressing victims and supporting 
victims and pursuing prosecutions, there is almost a default 
position that victims have taken through advocacy groups that 
they might be better off just doing the Title IX process. So 
what we really have to do in this complicated thicket of a 
juxtaposition of two systems is make sure that victims, like we 
have tried to do in the military together, when they report, 
they get support and good information about the options that 
are available to them. We have taken reporting in the military 
from 1 in 12 to 1 in 4, which is much higher than anywhere 
else, simply by providing special victims counsel to every 
victim in the military.
    Now we cannot, obviously, afford the Federal Government to 
do that for every victim of every alleged rape or sexual 
assault in the country, but what we can do is make sure the 
information those victims are getting in the military is now 
available to young men and women who are assaulted on college 
campuses so they know what their choices are at the moment of 
the reporting, they understand what the consequences are. As 
the Chairman so eloquently said in his opening statement, if 
they decline to go to the hospital, or if they decline to talk 
to law enforcement, that they are, in fact, taking on a chance 
that justice will never truly be obtained in terms of holding 
their perpetrator accountable.
    So it is in that framework that we have tried to work out a 
bill that will strengthen the support services for victims, 
provide them more information and as I said to college campuses 
all over my State when I did my tour, it does the college 
campuses no good to have a great system in place if the 
students do not know about it. A victim who is assaulted on a 
Friday night needs to know on that Friday night where she can 
call and where she can go for confidential support and good 
information which then we hope gives her the encouragement to 
make the choice to move forward in the criminal justice system.
    I must comment before I leave it to this Committee's work 
to find even better ways we can do this that I am saddened and 
angry about the bad journalism in the Rolling Stone concerning 
an alleged gang rape at the University of Virginia. I am 
saddened and angry because it is a setback for survivors in 
this country. This is not a crime where you have rampant false 
reporting or embellishment. This is a crime that is the most 
under-reported crime in America and will remain so. Our problem 
is not victims coming forward and embellishing. Our problem is 
victims are too frightened to come forward.
    So this bad piece of journalism, I think, has set us back 
and I want to make sure that we overcome it and do not allow it 
to slow us in our determination to make sure that victims have 
the support they need at the moment they need it. Thank you Mr. 
Chairman for giving me a chance to say a few words this 
morning. I will look forward to working with you and other 
Members of the Subcommittee and most importantly with Senator 
Gillibrand and our cosponsors on the bill to make it better and 
stronger and get it passed next year so that we can begin to 
have a list of reforms on college campuses that we have been 
able to accomplish in the military. Thank you.
    Chairman Whitehouse. Thank you, Senator McCaskill. For the 
record, let me say I do not think you and Senator Gillibrand 
have to be working together to be forces to be reckoned with.
    [Laughter.]
    Chairman Whitehouse. You may be excused. I know you have a 
busy schedule.
    Let me turn now to Senator Gillibrand. Welcome, and also, 
happy birthday.

             STATEMENT OF HON. KIRSTEN GILLIBRAND,
           A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Senator McCaskill, for your 
leadership and your passion and your vision on such an 
important issue. I really appreciate this Committee hosting 
this hearing. It is very important that we examine the role and 
responsibility of law enforcement in combating this scourge of 
sexual violence on our college campuses.
    The facts that according to one study nearly one in five 
women in college will be victims of sexual assault or attempted 
assault during their undergraduate careers should shake the 
conscience of all of us and it demands action. Too many young 
women's lives are being changed forever for us to accept the 
status quo.
    Earlier this Congress, Senator McCaskill and I along with a 
bipartisan coalition of ten senators ranging the political 
ideological spectrum introduced the Campus Accountability and 
Safety Act, a bill that would finally hold colleges and 
universities accountable for facing this problem head on 
aggressively with the goal of making safety on campus a reality 
for American students and not just the empty promise that it is 
today. The bill was the result of exhaustive efforts listening 
to survivors and examining the shortcomings in the current 
college and university system.
    I want to thank both Chairman Whitehouse and Ranking Member 
Graham for their leadership and their support of that bill. 
Clearly, we in Congress must look at how law enforcement must 
improve to be part of the solution.
    First, in our comprehensive bill we require every college 
and university in the country to have a memorandum of 
understanding with local law enforcement. It is shocking that 
this requirement does not yet exist.
    These types of crimes where physical evidence is crucial, 
time is precious and we cannot tolerate the hours, or days, or 
weeks of delay where jurisdictional arguments are being made. 
It is an area where Congress can act by passing important 
legislation that will serve to flip the current incentives for 
college and universities that would rather sweep these cases 
under the rug.
    Second, our ultimate goal should be that 100 percent of 
survivors of campus assault feel comfortable and confident 
reporting to law enforcement so that alleged assailants are 
legally held accountable through due process. This is a long-
term goal that we have to strive for.
    But time and again, I have heard from far too many 
survivors of campus sexual assault that they have felt re-
victimized by the process of trying to seek justice for the 
crime committed against them. This is an inescapable fact that 
we have to fix.
    The police should be the first responders when a crime this 
serious occurs, but in the vast majority of police 
departments--have responded to reports with victim blaming and 
belittlement and as a result, survivors have lost trust in law 
enforcement. Today I would like to provide the Committee with 
some accounts of survivor experiences when they tried to report 
their rapes to police to shine a light on the shortcomings that 
must be addressed.
    But first, as Senator McCaskill did, I want to address the 
University of Virginia story in Rolling Stone that some may 
hold up as a reason not to believe survivors when they come 
forward. Clearly, we do not know the facts of what happened or 
what did not happen in this case, but these facts have not 
changed, UVA has admitted that they have allowed students to 
have confessed to sexually assaulting another student to remain 
on campus. That is and remains shocking.
    More importantly, it has never been about this one school 
and it is painfully clear that colleges across the country have 
a real problem and how they are handling or not handling cases 
of sexual assault on their campuses. I hope this story will not 
ultimately outshine the story of thousands of brave women and 
men telling their stories and holding the colleges and 
universities across the country accountable. And I hope it will 
not discourage other students from coming forward because it is 
the students themselves all across the country who are 
demanding reform and their voices are vital to the debate.
    I refuse to let this one story become an excuse for 
Congress not to fix a broken system because I have met with the 
students and seen them bravely tell their painful stories, 
personal stories, so that other young women and men on campus 
will not have their own story to tell tomorrow.
    Young women in New York at Columbia like Emma Sulkowicz who 
was raped by a fellow student at Columbia University in 2012, 
reported her rape to the police in 2014. She described to a 
police detective how her assailant had pinned her arms down 
behind your head, pushed her legs up against her chest, 
penetrated her anally, choked her and hit her across the face 
despite her shouting and telling him no.
    The detective responded by telling Emma that the encounter 
was consensual because she had previous consensual sex with the 
individual. The officer repeatedly stated that the perpetrator 
just got a little weird that night; right? And told her that a 
defense attorney would rip her story apart.
    Anna was raped--another woman--Anna was raped at age 18, 
just 2 weeks into her freshman year at Hobart and William Smith 
College. When she filed formal criminal charges, the police 
sent the prosecutor a report filled with errors which included, 
in particular, failing to identify major discrepancies in 
statements given by three alleged perpetrators.
    An examination by a sexual assault nurse indicated that 
Anna had experienced blunt force trauma and tests found sperm 
or semen in her vagina and rectum and on her underwear, but the 
police never acquired DNA samples from the alleged 
perpetrators. The district attorney never interviewed Anna and 
he declined to bring charges just 1 day after the case was 
referred to him.
    Even in cases where survivors have felt supported by their 
interactions with police, they have been devastated by slipshod 
investigations, drawn out court proceedings and the refusal of 
prosecutors to take their cases. Four out of every five rapes 
that are reported to the police are never prosecuted. It is 
simply unacceptable.
    We must provide survivors of campus sexual assault with 
options for reporting to police that are beneficial to both law 
enforcement and survivors. This will encourage more survivors 
to come forward to pursue justice and ultimately leave more 
cooperative witnesses and better information to send to 
district attorneys to prosecute.
    The Ashland Police Department in Ashland, Oregon, has 
developed a model for investigating reports of sexual assault 
that strives to achieve these goals called the ``You Have 
Options Program Reporting.'' The department found that by using 
trauma-informed investigative techniques and allowing victims 
to provide as much or little information about the assault as 
they choose in a timeframe that they feel comfortable, the 
department can actually increase reporting and collect better 
evidence.
    In fact, when I sat down with the woman who developed the 
program, she said she was able to convince her police 
department to do this because it was the tools that were 
necessary to catch recidivists, to catch multiple rapes by the 
same perpetrator. So if they can convict these types of serial 
rapists, they were willing to try a different system. They 
found this system worked and that it was extremely effective.
    By using the You Have Options Reporting Program, the 
Ashland Police Department saw an increase in reporting of 
sexual assault by 106 percent between 2010 in 2013. There is a 
critical role for law enforcement to play in combating sexual 
assault on campuses. By increasing an environment that 
encourages reporting sexual assaults, police departments can 
bring these cases out of the shadows and hold more of the 
offenders accountable.
    I look forward to today's testimony and to identify areas 
where we can improve our criminal justice system and the way it 
responds to campus sexual assault. I look forward to continuing 
to push the reform of the way campuses handle campus sexual 
assault by passing our bill.
    Obviously, it is time to end the scourge of rape and sexual 
assault on American colleges and provide survivors the 
resources they need to recover and to hold these perpetrators 
accountable.
    Thank you, again, Senator Whitehouse for chairing today's 
hearing. I look forward to working with all of my colleagues on 
this Committee to help improve the situation. Thank you.
    [The prepared statement of Senator Gillibrand appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you, Senator Gillibrand, for 
your leadership on this issue. We are delighted also that your 
constituent, Chief Kathy Zoner, from Cornell, will be one of 
our witnesses, and you mentioned Ashland, Oregon--Angela 
Fleischer is one of our witnesses from Southern Oregon 
University.
    So let us go ahead and bring up the next panel. While the 
next panel is coming up, let me have a logistics moment. We 
have a vote that is beginning at 10:30 and so what I think I 
will probably do at some point during the testimony is have a 
brief hiatus so that anybody who is here can go and vote. It is 
actually two votes. So we will try to time it so that people 
have the chance to vote on both. So we wait until the end of 
the first vote and then come back and restart the hearing. So 
do not be surprised if we have to go through that little 
Congressional fire drill during the course of the hearing.
    Let me ask that the witnesses please stand to be sworn. Do 
you affirm that the testimony you are about to give before this 
Committee will be the truth, the whole truth and nothing but 
the truth?
    Ms. Fleischer. I do.
    Chief Zoner. I do.
    Ms. Langhammer. I do.
    Chairman Whitehouse. Please be seated. All right. We are 
really delighted to have this panel here. I think what I will 
do is I will make all three introductions and then we will go 
from witness to witness.
    We will begin with Angela Fleischer who is the assistant 
director of student support and intervention for confidential 
advising at Southern Oregon University and an administrator of 
Campus Choice. She is trained in Title IX investigations and in 
the forensic experiential trauma interviewing technique.
    She holds a master's degree in social work. Prior to her 
work at the university, she worked as a community-based 
advocate and program developer in the field of sexual assault 
and domestic violence. Ms. Fleischer was involved in the 
creation of the You Have Options Program at the Ashland Police 
Department which has quickly become a model of best practice 
around the country.
    We are delighted that you are here, Ms. Fleischer. Thank 
you so much for what you have accomplished.
    Her testimony will be followed by that of Chief Kathy Zoner 
who is a 23-year veteran of the Cornell University Police. In 
2009, she was sworn in the chief of police and was the first 
woman to serve in that capacity at Cornell.
    She oversees 50 armed sworn peace officers with law 
enforcement powers under New York State laws, serving a 
community of approximately 21,500 students and 9,700 faculty 
and staff. Chief Zoner served on the board of directors for 
Ithaca Rape Crisis Center for crime victim and sexual assault 
survivors for over 10 years, spending much of that time as 
president of their board. She also serves on Cornell's Council 
on Sexual Violence Prevention Council on Mental Health and 
Welfare and the President's Council on Alcohol and Other Drugs 
and the Council on Hazing Prevention.
    Chief Zoner convenes the Public Safety Advisory Committee 
and chairs the Diversity Council for Human Resources and Safety 
Services. A graduate of Ohio State University and the FBI 
National Academy, Chief Zoner is continuing her education at 
Cornell. We are honored to have her.
    Finally, Peg Langhammer joins us from my home State of 
Rhode Island. Peg has been executive director of Day One, 
formerly the Sexual Assault and Trauma Resource Center of Rhode 
Island for more than 25 years.
    A founding member of the Attorney General's Task force on 
the Sexual and Violent Physical Abuse of Children, she was 
instrumental in the establishment of the Rhode Island 
Children's Advocacy Center. Ms. Langhammer is a founder and 
served as chairwoman of the Rhode Island Sex Offender 
Management Task force and acted as chairperson of the Rhode 
Island Department of Children, Youth and Families Advisory 
Committee on Gender-Specific Programming.
    She is also a former member of the Rhode Island Board of 
Review of Sexually Violent Predatory Behavior and a member of 
the Rhode Island Criminal Justice Oversight Committee. We are 
thrilled to have her here in Washington and welcome her to the 
Committee.
    Let us begin with the testimony of Ms. Fleischer.

  STATEMENT OF ANGELA FLEISCHER, ASSISTANT DIRECTOR, STUDENT 
 SUPPORT AND INTERVENTION FOR CONFI-DENTIAL ADVISING, SOUTHERN 
                       OREGON UNIVERSITY,
                        ASHLAND, OREGON

    Ms. Fleischer. Senator Whitehouse and distinguished 
Committee Members, thank you for inviting us here today.
    Ashland Police Department's You Have Options Program and 
Southern Oregon University's Campus Choice were created as a 
response to one of the truths we know about, sexual assault. It 
is a vastly under-reported crime. The barriers that keep 
survivors from coming forward are many, but are often 
surmountable if we are able to focus our efforts on offering 
choice and providing trauma informed care.
    And when we increase at least initial reporting, the 
resulting benefits to individual victims and to our community 
are profound. By utilizing specially trained individuals in the 
response to reports of sexual assault, survivors are given 
access to accurate complete information and options and 
communities become safer as we learn to identify the offenders 
within, most of whom will continue to commit sexual offenses if 
left unidentified.
    The need for programs like these is urgent and undeniable. 
Some version of the following scenario plays out thousands of 
times each year on campuses across the country.
    An assault happens. There is no clearly identified place 
for the victim to go for information and she or he is 
encouraged by campus administrators to just move on or to 
accept help by engaging in the campus administrative process. 
The victim is never provided a clear explanation of the law 
enforcement response possibilities or if police response is 
considered, the investigation is often hindered by campus 
actions already taken.
    If the administrative process moves forward and the accused 
is found responsible, they may be expelled often to move on to 
another school where, because academic records are protected, 
they are free to offend again. The survivor may drop out of 
school or continue to struggle through classes feeling 
unsupported by the administration and as though his or her case 
is unresolved.
    Throughout it all, what is missing is the one thing that 
could best mitigate the impact of this crime on the survivor 
and on the campus community, an informed person who can provide 
options, ensure that the process proceeds at the speed that 
benefits the survivor and who can accompany the victim through 
the administrative and criminal justice processes, a 
professional that is trained in trauma-informed interviewing, 
the criminal justice system and the Title IX process.
    It is important for us to acknowledge that part of 
improving the campus response to sexual assault is improving 
law enforcement response so that it can be a viable victim-
centered option. Close coordination between campus and law 
enforcement responders is vital.
    Traditional policing has left much to be desired in regards 
to its treatment of victims, investigative techniques and its 
collaboration with university and college administration. 
Because of this, victims can be discouraged from coming forward 
to report crimes. Rapists are allowed to continue committing 
assaults and the safety of campuses remains tenuous.
    By creating a system that links the efforts of both campus 
administration and law enforcement and that rethinks the way 
law enforcement approaches these cases, You Have Options and 
Campus Choice have each more than doubled the reporting rates 
within their jurisdiction. Emphasizing a victim-centered and 
offender-focused response, the You Have Options Program seeks 
to collect information about offenders in their community by 
encouraging victims to come forward and report in whatever 
manner they are most comfortable, including anonymously in 
person or through a website.
    Victims choose the level of reporting they want and dictate 
the timeframe and scope of their investigation and are assured 
of their right to suspend the investigation at any time. 
Providing these options to the victims yields valuable 
information about offenders in the community that police would 
not otherwise have regardless of the ultimate legal outcome.
    Campus choice provides students with the opportunity to 
seek information and options through confidential advising. 
Through a confidential advisor who is exempt from the Title IX 
reporting process, students can receive information and help 
without triggering a mandatory investigation. It is imperative 
that the college administrator serving as the confidential 
advisor have a deep understanding of both the criminal justice 
system and the Title IX process.
    Municipal police can also interact with a confidential 
advisor without triggering a mandatory campus investigation. In 
partnership, law enforcement and campus stakeholders meet 
monthly to review campus sexual assault cases and a 
confidential advisor attends the county's monthly review of 
sexual assault responses in the community.
    Before serving as a confidential advisor at Oregon Southern 
University, I worked in the community alongside law 
enforcement. I was part of the development of the You Have 
Options Program and brought to the school my knowledge, 
understanding and experience of responding to sexual assault in 
a system that prioritized offering choices to victims.
    I am trained in trauma-informed interviewing as a Title IX 
investigator and as a mental health clinician. When the police 
department and the university are working together on a case, I 
am able to accompany a victim through the entire criminal 
justice process. I have seen firsthand the improvements to 
victim care our programs bring.
    Before You Have Options and Campus Choice, there was very 
little coordination between law enforcement and our university, 
but now at SOU, 76 percent of the cases coming through 
confidential advising that involve a crime have interaction 
with law enforcement. There are a number of reasons for this 
increase.
    In our model, both institutions respect the process of the 
other. A victim may enter either system and expect to get 
reliable information about both the criminal justice and 
administrative processes and neither law enforcement nor the 
University will report to the other without the permission of 
the victim.
    However, either entity might contact the other to relay 
information or ask hypothetical questions that could benefit 
the understanding and choices of a victim. Most importantly, 
both Campus Choice and You Have Options require that anyone 
interviewing victims is trained in trauma-informed interviewing 
techniques. Trauma-informed interviewing, the forensic 
experiential trauma interview or FETI process, was developed to 
recognize and respond to how trauma affects a victim's ability 
to access memories of their assault and how it affects their 
emotions and behavioral presentations.
    This technique created by Russell Strand greatly increases 
the accuracy of the information provided and profoundly 
improves the positive experience of the victim during any 
interview and investigation. The success we have seen it bring 
to our cases leads us to highlight its use as the most 
important first step any campus or law enforcement agency can 
take. For those seeking to improve their campus response, this 
is where I urge you to start.
    I truly believe that law enforcement and colleges together 
can create safer campuses and communities by starting with a 
few concrete steps, becoming fully educated about each other's 
processes, providing forensic experiential trauma interview 
training for all interviewers, adopting a victim-centered 
method of reporting found in the You Have Options and Campus 
Choice Programs, emphasizing the identification of serial 
perpetration and committing fully to an ongoing purposeful 
collaboration that focuses on the needs of the victim. I 
believe this because in Ashland, Oregon, and Southern Oregon 
University, I have seen the change begin. It is possible.
    Thank you.
    [The prepared statement of Angela Fleischer appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you very much.
    I have just heard that the vote is about to conclude, so 
let me suspend the hearing briefly while Senator Franken and I 
go and vote, wait for the new vote to start, vote again and 
then come back. That probably should be five or 10 minutes. I 
thank our witnesses and guests for their patience.
    [Whereupon, at 10:41 a.m., the Subcommittee was recessed.]
    [Whereupon, at 11:09 a.m., the Subcommittee reconvened.]
    Chairman Whitehouse. Let me call the hearing back into 
order and apologize for my version of 10 minutes. Welcome to 
time in the United States Senate.
    Chief Zoner, please proceed.

     STATEMENT OF KATHY R. ZONER, CHIEF OF POLICE, CORNELL 
              UNIVERSITY POLICE, ITHACA, NEW YORK

    Chief Zoner. Thank you very much, Chairman Whitehouse and 
Senator Graham, Members of the Committee. Thank you for calling 
this hearing, inviting me to share my perspective on the roles 
and responsibilities of law enforcement in addressing sexual 
assault on college campuses. I have submitted a longer, more 
detailed but still concise statement for the record and will 
try to summarize my remarks here, focusing on our best 
practices that we have engaged in and perhaps make some 
recommendations.
    As I begin, I want to stress that Cornell University 
recognizes sexual violence is a serious campus and public 
health issue that affects every member of our community. We 
commend the Subcommittee for taking a closer look at the 
interplay between law enforcement and campus adjudication 
procedures. I particularly want to thank my Senator, Kirsten 
Gillibrand, for her tireless work on behalf of survivors and 
for her willingness to work with campuses in New York State.
    I, like everyone at Cornell, share your goals of preventing 
sexual assault on our campuses. Cornell has paid close 
attention to efforts by policymakers and I was honored to 
participate in Senator McCaskill's roundtables earlier this 
year. We appreciate the difficulty of designing policies that 
address all of the complexities and nuances of preventing and 
responding to sexual violence.
    Administrative investigations are conducted by campus 
officials and adjudicated pursuant to the school's code of 
conduct and internal policies. They are governed by a number of 
laws like Title IX, regulations and sub regulatory guidance. 
Law enforcement investigations are conducted by the law 
enforcement agency with jurisdiction where the assault took 
place. They look into allegations of criminal activity as 
defined by State law, not campus policy or Title IX.
    There are several key differences between a campus 
adjudication proceeding and a law enforcement investigation. 
Standard of proof is one of them. Because campus fact finders 
use a preponderance of the evidence standard, the lowest burden 
of proof in a civil proceeding, and law enforcement proceedings 
use beyond a reasonable doubt, the highest standard, survivors 
and those supporting them become angry and confused when a DA 
is unable to prosecute cases criminally where a respondent has 
been found responsible on campus during their proceedings. The 
lower administrative standard of proof falls short often of the 
higher beyond a reasonable doubt standard.
    Evidence--campus fact finders are permitted to consider a 
broad range of evidence including evidence like hearsay or 
unauthenticated evidence that would not be admissible in a law 
enforcement proceeding were rules of evidence are much 
stricter. It takes more than 60 days to process some physical 
evidence such as DNA because of backlogs in crime labs and 
therefore administrative investigations almost always outpace 
criminal investigations. The fast administrative timeframe may 
also taint admissible evidence and accelerate discovery in a 
way that harms the complainant in a criminal proceeding.
    Then there is cross-examination. There is no opportunity 
for cross-examination of a campus investigation or judicial 
proceeding. Cross-examination, however, is one of the 
cornerstones of a criminal trial guaranteed by the Sixth 
Amendment. Campuses must investigate all reports of sexual 
violence made through responsible employees under Title IX. 
Additionally, campus officials must inform students of their 
right to file a criminal complaint and have an obligation to 
guide students through the process if they desire.
    If the student chooses to file a criminal complaint, the 
campus is not permitted to delay its Title IX investigation 
which must be concluded within 60 days while the criminal case 
is proceeding. This is a source of much tension between the two 
systems and my administrative colleagues have found that 
largely due to these conflicts, parties are less willing to 
cooperate and be candid while a criminal investigation is 
pending.
    In the face of these difficult issues, you asked me to talk 
about some best practices. First, we suggest being a good 
neighbor with your other local law enforcement agencies. Our 
main campus lies within several governmental and jurisdictions. 
Our cooperative efforts with local law enforcement began long 
before crime is reported. Leaders and supervisors meet and talk 
on a regular basis, building relationships so that we can share 
information naturally and not only on an ad hoc or emergency 
basis. Establishing regular and open lines of communication 
increases our confidence and trust to share information on 
cases that cross jurisdictional lines.
    An MOU is not a panacea. A memorandum of understanding, or 
MOU, with local law enforcement is often cited as a best 
practice. I agree that it can be helpful, but entering into one 
is not always possible and municipalities with larger 
jurisdictions may find themselves with many different MOUs to 
contend with. There is no guarantee that a local law 
enforcement agency will cooperate with and MOU, nor are there 
consequences if they do not.
    Given the one-sided nature of a MOU and the amount of time 
and resources it takes to secure and maintain one, lawmakers 
should consider carefully a sweeping mandate to enter into one. 
There are better, less costly, more balanced ways to achieve 
the same goals. In any case, the penalty proposed in CASA, up 
to 1 percent of the school's operating budget, for failure to 
secure a MOU goes too far for something that is so out of the 
institutions control.
    Although the legislation allows the Department of Education 
to waive the penalty if an institution demonstrates a good 
faith effort, it gives the department too much discretion in 
making that determination and DOE's resources could also be 
more fruitfully engaged in encouraging more attainable methods 
of cooperation.
    We reiterate our colleagues emphasis on trauma-informed 
investigations. We know that only a small percentage of sexual 
assaults are reported to the police. Victims believe they will 
not be treated fairly or will be re-traumatized throughout the 
process. As more investigators, both law enforcement and campus 
judicial investigators, are trained in trauma informed 
investigative techniques, I believe the perceptions of the way 
we handle campus sexual assault cases will improve. The You 
Have Options Program pioneered in Ashland, Oregon is a good 
example of how this training works.
    Community engagement to share resources--most 
municipalities are stretched thin and not able to engage fully 
with their campus populations. Because resources are scarce for 
everyone, we should be doing more to share those that exist. 
For example, many databases and other investigative support 
tools are not available to campus law enforcement because we 
are not considered to be governmental agencies by the State or 
municipal authorities that control the resources. Easier access 
to these resources would be a tremendous help to appropriate 
campus law enforcement agencies and ease the burden on the 
governmental agencies.
    We know you are concerned about the amount of enforcement 
and oversight of Title IX and the Clery Act. Efforts to beef up 
enforcement, including increased fines for noncompliance, 
should be coupled with incentives for training, education, 
programming around prevention, law enforcement and 
administrative investigator positions and research.
    As I noted previously, resources to support training and 
trauma-informed investigations will benefit campus adjudicators 
and law enforcement. I am concerned, however, that the system 
of fines proposed in CASA does not differentiate between 
willful, knowing and intentional conduct and inadvertent 
conduct, but rather gives the department great discretion to 
assess a significant penalty thereby affecting the amount of 
resources available to do a better job.
    The bill allows the department to keep the fines it 
collects creating an incentive for over enforcement. I strongly 
recommend that these provision be revised to put the penalties 
more in line with civil rights laws to differentiate between 
willful and inadvertent violations and to direct the fines to 
research and training.
    I also strongly encourage you to target education and 
prevention programs at the middle and high school levels to 
begin to address cultural issues around sex, alcohol, 
controlled substance usage and consent before students arrive 
at college. Attitudes and perceptions about sex, healthy 
relationships and gender roles solidify long before young 
people reach college age. The earlier we can begin education 
around respect and civility across gender lines at a more 
meaningful and impactful time, the better chance we have of 
making the sweeping cultural changes necessary to get at the 
root of this problem.
    In conclusion, Cornell University does not tolerate any 
form of sexual violence by or against members of its community. 
We share the responsibility for creating a safer more caring 
campus culture in which bias, harassment and violence have no 
place. I appreciate the opportunity for input into your 
deliberations and would be pleased to answer any questions the 
Subcommittee has.
    [The prepared statement of Chief Kathy R. Zoner appears as 
a submission for the record.]
    Chairman Whitehouse. Thank you, Chief Zoner.
    And now we will turn to Ms. Langhammer. Welcome.

   STATEMENT OF PEG LANGHAMMER, EXECUTIVE DIRECTOR, DAY ONE, 
                    PROVIDENCE, RHODE ISLAND

    Ms. Langhammer. Thank you--good morning, Senator 
Whitehouse, Senator Franken. Thank you for inviting me to 
testify today.
    Day One has served as Rhode Island's sexual assault 
coalition for over 40 years. We provide treatment, 
intervention, education, advocacy and prevention services to 
Rhode Islanders of all ages and we operate the State's only 
children's advocacy center which is accredited by the National 
Children's Alliance. Our trained staff of 40 employees and 60 
plus volunteers worked closely with law enforcement, 
prosecution, area hospitals, schools and the community to 
address and prevent sexual assault and abuse with highly 
regarded trauma informed treatment and programs.
    Rhode Island's high concentration of colleges and 
universities make the issue of campus sexual assault a major 
focus for Day One. We have worked with victims of college 
sexual assault throughout our long history. So we have been 
aware of the issue's prevalence. We know these cases are rarely 
reported to law enforcement and that the ones that are hardly 
ever move on to successful prosecution. It is clear the current 
system is not working.
    There has never been a comprehensive system that works in 
the best interest of victims, either in our State or around the 
country. Day One is on the front lines and committed to 
changing that in Rhode Island. To start the process, we are 
organizing a specialized task force to address the adult sexual 
assault in Rhode Island that includes law enforcement, 
prosecution, Day One advocates, medical professionals and 
higher education representatives.
    This team will be responsible for the oversight of adult 
sexual assault cases from the initial report to investigation 
and prosecution, to trauma-informed clinical treatment and 
support for the victim. And we will ensure that the victim is 
in the driver seat.
    Campus-based adjudication processes do not work. Colleges 
alone are not competent to handle the investigation and 
prosecution of these cases, nor should they be. Any hearing 
process should be integrated with law enforcement, but it has 
to be a team approach.
    After the release of the White House Not Alone report last 
year, the issue of campus sexual assault became front and 
center in Rhode Island. Day One has been proactively meeting 
with nearly all of the colleges and universities throughout the 
State to develop a best practices approach to these cases and 
what we found is that everyone at the table from universities 
to law enforcement to advocates is committed to making major 
improvements in the system, but we need a coordinated victim 
centered approach to get there.
    We know that research suggests that more than 90 percent of 
campus rapes are committed by a relatively small percentage of 
college men, possibly as few as 4 percent who are repeat 
offenders averaging about six victims each. Yet, these rapists 
overwhelmingly remain at large escaping any serious punishment.
    The current climate is such that universities and lawmakers 
are scrambling to find a global fix for the problem with 
misleading policies about alcohol, consent and what constitutes 
rape. What we need to be focusing on is bystander intervention 
so that the vast majority of students who are not committing 
rape can intervene when they see someone being taken advantage 
of. And we need a system that holds offenders accountable.
    We know we cannot just leave these cases to the criminal 
justice system in part because most victims are so reluctant to 
report. So the question is not should colleges be mandated to 
report these crimes to police. The question is how do we create 
a system where the victim's choices are the priority and the 
process is designed to work in the best interest of the victim. 
We have to make the option of reporting a viable one for 
victims and we know that based on successful models in other 
States a positive experience during initial reporting creates 
an environment where victims feel supported and believed and 
decreases re-traumatization.
    One example worth noting, as we have all talked about 
today, is the You Have Options Program out of the Ashland, 
Oregon Police Department that recognizes the need for a victim-
centered and offender-focused response to sexual violence by 
law enforcement professionals. And just a few highlights that 
really I think have impressed us in Rhode Island. A primary 
goal of the program is to increase sexual assault reporting by 
eliminating as many barriers to reporting as possible. We think 
that is key.
    Another key component of this program is the victim has the 
option to make an information report only, meaning the victim 
can choose to remain anonymous but still provide details of the 
case to law enforcement for documentation. When making an 
initial report, there is no requirement to meet in person with 
a law enforcement officer. A victim or other reporting party 
may report using an online form or victim may choose to have a 
sexual assault advocate report on their behalf. The victim 
maintains control over the time and location where the initial 
report is made to law enforcement and in addition to 
comprehensive advocacy provisions, a victim is not pressured to 
participate in a criminal investigation after making a report.
    What we are advocating for does not universally exist 
today. We have to create it. If we expect victims to report 
these crimes, we need a system that works for them, one in 
which they are believed, supported and can be confident in a 
just outcome. We owe it to our students to provide the best 
possible response to all sexual assaults. Without that, we are 
sending a message to not bother reporting this crime.
    Thank you.
    [The prepared statement of Peg Langhammer appears as a 
submission for the record.]
    Chairman Whitehouse. Thank you very much, Ms. Langhammer. 
Let me thank Senators Klobuchar and Blumenthal for joining us. 
Distinguished prosecutors, both, before they came here.
    Let me step out of order for a moment since I am going to 
close the hearing. I know Senator Franken is under the gun for 
another hearing and if I could yield immediately to him for 
questioning, I think that is probably the most----
    Senator Franken. Well, thank you. It seems like the You 
Have Options Program got unanimous raves from the panel here, 
which says something. I was wondering is there--knowing the 
McCaskill-Gillibrand legislation, is there anything in it that 
you can take from your program that sort of would legislatively 
say these are the best practices or you need to do some kind of 
program like that? Is there any particular aspect of the 
program that you think that possibly should be within the 
legislation itself?
    Ms. Fleischer. Well, I think it would be great if the 
legislation could include some requirements of law enforcement 
as well. The bill does address colleges providing confidential 
advising and a resource that is informed and knowledgeable 
through the campus.
    That seems a bit complicated to add into a bill that is 
mostly directed at campuses, but of course you all know about 
that better than I do. So I think somehow including the ideas 
behind offering choice, offering collaboration, offering a 
commitment to working with a campus administration around 
reports would go a long way, always, of course, at the 
direction of the victim about whether that is what they want or 
not.
    Senator Franken. What about this trauma-informed testimony? 
That seems to be--is there a way to describe that that is 
either general enough to include or--tell us about what that is 
and how it works.
    Ms. Fleischer. Okay. So that is an interviewing technique 
that was developed by Russell Strand, actually, to be used in 
the military. And it is based on some neurobiological science 
that is around how our brains form memory when we experience 
trauma.
    So it diverges from a typical rapid-fire questioning 
experience and really asks investigators to slow down, approach 
an interview while talking about all of the senses of memory--
what did you hear, what did you feel, what did it smell like--
and departs from the typical linear investigation--where were 
you, what time was it, who were you with, those types of 
things--and just starts from where you know, tell me what you 
can about a particular situation that happened. It also 
decreases the likelihood of misinformation being given at a 
time often victims feel pressured to answer a question, and so 
in order to do that, they maybe give an answer that is not 
entirely accurate or they just are trying to be pleasing to 
those that are asking the questions. So when you phrase things 
like ``tell me what you can about,'' that just allows a person 
to tell you what they can.
    Senator Franken. This is for the whole panel. I had a bill 
that provides mental health--it allows schools to partner with 
mental health providers and community-based organizations to 
make sure that students have mental health treatment as they 
need it. And we got about $55 million in new funding for these 
kinds of programs. I have seen this work very well in schools 
in Minnesota.
    But I often hear, when I hear about this subject, the 
shortage of mental health counselors on college campuses and I 
am interested in exploring the same model with college 
campuses. This is for anyone on the panel. What would you 
include in legislation to expand students' access to mental 
health care and to make sure that college students get the 
mental health supports that they need?
    Ms. Langhammer. I think that is great that you are putting 
that forward. I think it is important that students have access 
not only on-campus, but off-campus. That there may be times 
when it makes more sense for them to seek services from private 
providers in the community, maybe with not-for-profit community 
mental health centers or other kinds of organizations that 
provide services, but on campus as well.
    I do not know that all campuses have that level of 
professional to respond to what victims need in particular. So 
I think it is important to expand it and have it be available 
and the training available to those that would like to access 
it and become skilled in that area.
    Ms. Fleischer. One of the barriers that we see at our 
university is just a lack of time. I mean one is based on the 
school year and so students who are engaged in therapeutic 
services on campus are generally disengaged for the summer 
period, in particular. So that can be disruptive to a 
therapeutic process.
    And the other is just sort of the volume of students who 
are accessing the services and that tends to limit the number 
of sessions that people can have with a therapist. So 
ultimately, it comes back to a resource issue I think. And when 
you are doing trauma work, it is often long and involved and 
over a long period of time.
    Senator Franken. Thank you, Mr. Chairman.
    Chairman Whitehouse. Senator Klobuchar.
    Senator Klobuchar. Thank you very much Senator Whitehouse. 
Thanks for holding this hearing. Thank you to our witnesses.
    I was a prosecutor for 8 years and managed an office of 400 
people in Hennepin County, Minnesota, and we worked extensively 
with the University of Minnesota and their police chief. And 
one of the things with the discussions of campus sexual 
assault, and also, actually, sexual assault in the military, 
that I have always put forward is that trust in the system is 
key.
    That all of our victim surveys--the gold standard, of 
course, is charging the case and getting a strong sentence, but 
you all know that does not always happen. Sometimes you cannot 
prove a case. Sometimes I have met with victims and their 
families and said we believe you, but we do not have the 
evidence right now, but we want you to know it is going to make 
a difference. This guy will probably do it again and we can do 
something then and perhaps your testimony will matter and those 
are hard discussions.
    But what we have found in the surveys of what makes the 
biggest difference is that they still feel that they can trust 
the system so they will come forward and that someone is 
listening and they are handling their case seriously. So I 
think sometimes when people look at this from the outside, they 
say it is all about charging in getting these--we all know that 
does not always happen. It is also about trust. So I wondered 
if you could address that a bit in terms of that trust, maybe 
you, Chief Zoner and why that is an important piece of this?
    Chief Zoner. I do not know that I could actually say it 
better than you said it.
    Senator Klobuchar. Well, that is a great answer, Chief.
    [Laughter.]
    Senator Franken. Let the record reflect.
    Chief Zoner. It is very, very important. You can have the 
best investigation, you can have the best advocacy, you can 
have the most willing and energized and in pursuit of justice 
survivor to bring forward, but if you are stymied at any point 
in the criminal justice proceedings because of lack of 
evidence, because of lack of willing to prosecute because of 
concerns about win/loss records--very candidly put, then you 
can run into a greater difficulty in getting more people to 
come forward. So very much what you said, building that trust 
throughout the entire stage of the system is paramount.
    Senator Klobuchar. Okay. Very good. One thing we did at the 
University of Minnesota, we would do something called Take Back 
the Night every single year and it raises awareness, and I 
wonder if, Ms. Fleischer, you could just address a simple idea 
that sometimes we think everyone knows about how to prevent 
this from happening and what happens, but a lot of times 
students are just out of high school and they show up at campus 
and they can make some bad decisions and the perpetrators can 
make some really bad decisions. Could you talk about how 
education matters?
    Ms. Fleischer. Absolutely. Again, you said it well. What we 
find so much at the college level is, of course, what were 
talking about is consent. Mostly in our culture, we do not talk 
a lot about sex, in general, and how to pursue it and how to 
make sure that everybody wants it. So there is definitely a 
percentage of people who really just are uninformed about how 
to gain consent to have sex and I think it was Chief Zoner who 
talked about having education and prevention happening early, 
early on in schools where you are talking about consent from an 
early age and then certainly at a college level.
    When we do our educative outreach programs at our school to 
students, that is primarily what we are talking about, consent. 
Not so much focusing on sexual assault and rape, but students 
knowing what consent is, how to get consent and how to be sure 
that both parties or all parties involved are participating 
because they want to.
    Senator Klobuchar. Okay. Very good. Thank you. Chief Zoner, 
in terms of educating--we talked about students--but police 
officers on the front line. I will tell you I like the idea of 
having more women chiefs.
    When I first started as prosecutor, I remember talking to 
our University of Minnesota police chief, who was a woman, and 
I said, well she is going to take me around to meet the other 
chiefs at the 45-police chief meeting we would have every month 
where we would eat steaks at 11 o'clock in the morning.
    I said well how will I know who you are, I said to her. She 
said it will not be hard. I got there and she was the only 
woman and we have greatly increased the numbers. I think that 
would help, personally. And it does not necessarily mean as 
chiefs, but higher up in the police departments.
    I also think there are best practices that you can 
recommend to all line officers and other chiefs. Could you talk 
about that and how to deal with victims of sexual assault?
    Chief Zoner. Yes. I think the type of person that gets 
drawn to law enforcement is the type of person who very quickly 
and rapidly wants to get all the facts together and see justice 
served. Sometimes the system goes against the grain and the 
drive of the individuals there, so training officers to slow 
down and allow the person to give the testimony in a way that 
makes the most sense and gets the best and most truthful 
information from someone, the most accurate recollection is a 
way that we can, again, reemphasize that a victim-centered 
approach will go much further in the prosecutorial proceedings.
    And I think that, again, you mentioned women in law 
enforcement. The sentiments of being a good listener as opposed 
to looking forward and trying to get to the goal as fast as you 
can has to be very carefully balanced and women do tend to 
carry on a more conversational manner of speaking. So whatever 
level they are in, I think our colleagues can all learn from 
each other, anyone who exhibits those traits of good listeners 
and getting accurate information and allowing someone to move 
forward should be reinforced.
    Senator Klobuchar. Very good. And the last thing I will 
add--my time is up here, just that I appreciated your comments, 
Ms. Langhammer about different sizes of colleges and 
universities and the issue, Ms. Fleischer, about time and how 
you do that because we are going to have to, as we look at 
this, not every college is going to be able to have full-time 
people do this when they are at a smaller place. So you have to 
look at it in terms of training within the counties and the 
departments as well.
    So thank you very much. I appreciate it.
    Chairman Whitehouse. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman and thank you 
for holding this hearing which is immensely important. I have 
been involved in helping to write the bill that Senator 
McCaskill and Senator Gillibrand and I have done and working 
very closely with groups, advocates, survivors in Connecticut. 
In fact, holding more than a dozen roundtables to listen 
directly and to learn from everyone involved in this issue.
    The bill, in my view, really involves law enforcement 
through memoranda of understanding that would be required. It 
provides for better fact-finding and investigation on campus 
through confidential advisors as well as a uniform process of 
adjudication within the University. All too often, it is ad hoc 
and unfair to both sides. The lack of a process with integrity 
and accuracy is what discourages a lot of survivors from coming 
forward.
    So this bill will give them more choices, to go through the 
criminal process off-campus or a fair and uniform process with 
due process on campus. I think the experience at the University 
of Virginia should reaffirm our resolve not only to addressing 
this epidemic of campus sexual assault, but also providing 
reassurance to victims and survivors that there will be due 
process and accurate fact-finding with integrity and honesty 
and services--a real commitment to services so that a woman is 
not left standing outside of a fraternity seeking help from her 
friends. She should have support within the system, 
confidential advisors, services that will elicit the truth from 
her, provide means of eliciting forensic evidence and 
preserving it, a system that avoids the kind of ad hoc 
sometimes chaotic process that is so demeaning and discouraging 
to victims and survivors.
    So I think that the University of Virginia experience--and 
we are unable at this point to draw clear conclusions as to 
what the facts were at this point--should intensify and 
increase our determination to make this process worthy of the 
courage of survivors who do come forward. Whatever happened to 
this victim or survivor, it should redouble our determination 
to improve this process.
    Let me ask, Ms. Langhammer, I strongly believe that we 
should require schools to provide comprehensive training to 
individuals who serve on a campus adjudication panel and that 
we ought to pick people who have the qualifications and 
experience and expertise to provide some measure of fairness 
and due process. Do you agree that we should not take away a 
survivor's ability to receive on-campus remedies through this 
kind of adjudication process?
    Ms. Langhammer. I think it is really important that victims 
have clear thorough options presented to them and that the 
options are developed in partnership with all of the 
appropriate players. That is that any campus officials should 
be working ahead of time before incidents happen. The 
partnership should be developed beyond just a MOU. I agree that 
is not enough. But the partnerships need to be in place so that 
it actually develops into a system where law enforcement does 
know about every assault that happens. However, the victim 
needs to be in that driver seat and the victim needs to be in 
charge of what happens with that information later.
    Senator Blumenthal. The victim should be in charge of the 
information, should be in charge of what happens with a 
prosecution if that is the choice or an on-campus adjudication, 
but you do not disagree that on-campus adjudication should be 
an option for a survivor?
    Ms. Langhammer. I think it depends on----
    Senator Blumenthal. Because that is the way I--I hope I 
misread your testimony, but I read it as essentially 
disapproving those on-campus adjudication processes as, to use 
your words, ``that they don't work.''
    Ms. Langhammer. As they currently exist, they tend to 
replace any effective reporting or investigation or prosecution 
on the criminal side. So what happens is in most cases the most 
that might happen is an individual would be suspended or even 
expelled, but then free to go to another institution and given 
the statistics as we know that most of these individuals are 
serial offenders----
    Senator Blumenthal. And I think that is a very important 
point, that predators commit crime, after crime, after crime, a 
small minority of college men commit the overwhelming number of 
rapes and sexual assaults against women. But it seems to me 
that the issue you have just raised of recordkeeping and record 
transfers is separate and apart from the existence and 
integrity and fact-finding effectiveness of an on-campus 
adjudication process and I hope that you will support what is 
in the bill which is to preserve and, in fact, enhance what we 
have now on many campuses. Many are taking the initiative on 
their own to do so.
    My time has expired. I apologize, Mr. Chairman. But I would 
be happy if the Chairman would allow us, or allow you to finish 
your answer, for you to do so. Thank you.
    Chairman Whitehouse. I would gladly do that.
    Senator Blumenthal. Thank you.
    Ms. Langhammer. Thank you, Senator I do not disagree with 
you that there needs to be some kind of process as an option 
for victims on campus. There are a lot of things that need to 
be addressed on campus to support that victim's effective 
continuation in campus life. However, I think right now a lot 
of those processes have been developed in a vacuum and have not 
been developed in true partnership with law enforcement in a 
way that clearly defines what should be happening on campus and 
what should not. I think there is too much emphasis on really 
what should not happen on campus and currently universities, 
administrators are forced to act as judge and jury. The 
defendant's rights are violated.
    We all know. We have seen these horror shows on campus, 
after campus. So I think right now I do not know that we are at 
a place where we have developed effective on-campus 
adjudication processes because we have not worked effectively 
so far, maybe in some cases we have, but with law enforcement 
and I really encourage us. I know in Rhode Island will be 
looking at the Ashland model which is sort of the new kid on 
the block for all of us in a sense, but is so--I think 
addresses the concerns that you have as well as the concerns 
that we see at Day One in terms of victims basically not being 
given all of their options.
    In many cases, only the adjudication process options are 
given in a very thorough way to victims at the present time. So 
I think that is our reluctance to say yes we need a good 
adjudication process. I think they have to be hand-in-hand with 
all of the other options.
    Senator Blumenthal. Well I want to thank all of you for 
your testimony, your appearance here and your great work. If I 
am able to stay for more questions, I will ask them, but I just 
want to emphasize for folks in the trenches like yourselves 
were doing this work, the controversy about the University of 
Virginia probably seems like a distraction but it is no excuse 
for continuing to support this cause of improving the services 
and the process available to victims and survivors.
    So thank you, Mr. Chairman.
    Chairman Whitehouse. Thank you, Senator Blumenthal.
    So Senator McCaskill called it a complicated thicket where 
Title IX and law enforcement bump into each other and I think 
that is a pretty fair description and I would like to get into 
that complicated thicket just a little bit right now. Ms. 
Fleischer, you talked about the importance of assuring victims, 
survivors, of their right to suspend the law enforcement 
investigation as it goes forward.
    Now one might say, well, if you give the victim of the 
crime the right to suspend the investigation, that is going to 
result in less enforcement. I think you have seen that that is 
actually not true, but could you explain that for our Committee 
record, why giving the right to stop an investigation actually 
makes investigations more likely to go forward?
    Ms. Fleischer. Absolutely. One of the things that we have 
seen a lot is that when survivors are entered into any process, 
that being a law-enforcement process or an administrative 
process at the college, there is a timeframe and there is a 
rush. And what happens for a lot of survivors is they just feel 
sort of catapulted by the process. It is completely out of 
their control and a lot of the time they do not even really 
truly understand what is going on. Most lay folks do not 
understand a criminal investigation or the parts and pieces of 
it.
    So what we have actually found is it has increased not only 
reporting, but it has increased those cases that go to the DA's 
office because the survivors are given the time they need to 
fully engage in the process, to understand the process and 
also, to be real, to maintain the rest of their life. Because 
that is another thing that happens is, people's lives get sort 
of hijacked by the criminal justice process and they are 
needing to find different shifts at work or if it is a student, 
it is impacting their studies, and all of those kinds of 
things.
    Another barrier for a lot of survivors is informing their 
parents about what has happened to them and the process they 
are engaged in. So by allowing them to suspend and pause, they 
can sort of take care of those bits and those pieces in a way 
that they feel comfortable to continue on in the criminal 
justice process.
    Chairman Whitehouse. I would note from a prosecutor's point 
of view that by formalizing that you are really not giving much 
away because in cases like this where consent is such an 
important part of the offense or lack of consent, the presence 
and willingness of the victim to proceed is crucial. I think in 
many respects all you are really doing is informing and 
confirming for victims of the crime a power that they have 
anyway but do not know because it is a big black box to them 
going in, which takes me to my second question.
    Somebody who has experienced a sexual assault and now has 
to encounter the Title IX process and the law enforcement 
process has two things going on. In fact, everybody in that 
process has two things going on. One is responding to the event 
itself, beginning to gather evidence, beginning to take 
statements, beginning to put together the case that will go 
forward one way or another.
    The second is to educate the person who was the subject of 
the offense about that process and those two things, I think we 
need to think about how we disaggregate them a little bit. And 
what you said in your testimony is that in your program, there 
is a confidential advisor who is exempt from the Title IX 
process. Does that mean that does not click off the Title IX 
timing clock when they are spoken to?
    Ms. Fleischer. Yes.
    Chairman Whitehouse. Yes. And at the same time the police 
can engage with the victim of the crime without being obliged 
to necessarily open a criminal case and proceed with charges?
    Ms. Fleischer. Yes.
    Chairman Whitehouse. So it seems to me--I think of it as a 
vestibule before you get into the case part where you get the 
victim, the Title IX folks or somebody representing them, the 
confidential advisor and law enforcement together and that 
gives the person who has been the subject of this crime the 
chance to understand what it is going to be, what her choices 
are, his choices are, all of that before the second process 
gets triggered. Is that a fair description of what you are 
trying to achieve and is that something we should be trying to 
achieve in this legislation to make sure that kind of vestibule 
moment exists?
    Ms. Fleischer. Yes. I believe so and perhaps that is best 
illustrated by a case example.
    So we had a student present at our women's resource center 
and she was referred to me. She came to my office and sort of 
outlined for me what had happened to her. Given my knowledge--
which I said was imperative of the criminal justice system--I 
knew that what she was sharing with me was in our State a 
Measure 11 crime, meaning that the crimes that had been 
perpetrated against her would carry a 25-year prison sentence. 
So we are talking about a serious crime.
    So I sort of let her know that she was disclosing a crime 
to me and at that time sort of said, and here are your options. 
This is what we can do on campus and this is what we can do 
with law enforcement. One of the things that I think is 
important to note as well is, she was also getting my 
endorsement of law enforcement, sort of, I was opening a door 
saying, you will have a good experience here and I can go with 
you for that.
    This particular woman said okay, let us do it right now, 
today. And I said okay, I will call and see if we can. I will 
see if there is a detective that can work with us today, and 
there was. So it was kind of kismet, in a way, because I had a 
free calendar and was able to go with her and she interviewed 
with law enforcement right then and I was there.
    And still in that process what I am able to do as a college 
administrator--because it was another student who had 
perpetrated the crime--is say are you safe in your current 
campus environment? Here is the Title IX process. Here is what 
it looks like, the Title IX process. And here is the time clock 
once we sort of involve these other campus people.
    And this woman was okay, but I want to mention that because 
of course that is important. We need to assess if somebody is 
safe and able to be a student, be able to live in their 
environment, all of those things. And she was and was invested 
in that process. So she participated in the law enforcement 
investigation with my support up until the point of when they 
were ready to interview and make an arrest of him.
    At that point, is when we engaged our Title IX process on 
campus because now nothing that the college is going to do is 
going to impede the criminal justice system and in a way it 
actually helps our case as a college that this engagement with 
law enforcement has happened. So both of those procedures 
happened successfully. That student had a plea bargain so he is 
a registered sex offender and was charged and convicted of 
those crimes and he was also expelled from the university.
    The last piece that I would say about that is there still 
are other parts. I accompanied her to grand jury. I went with 
her when the sentencing happened and was there to also explain 
some of the other bits and pieces of things, crime victim's 
compensation and where is he going to be on probation and how 
does she get in touch with those people and all of the pieces 
that continue after both matters are closed.
    And then finally just to say about her, she is still a 
student and she is still impacted. Just because those two 
processes have concluded, her life continues to be impacted by 
what happened to her. And so there I am still a resource for 
her on campus.
    And I just think that vestibule is a great word. Sometimes 
I think of a hub, you know, something like that. Having that 
person that has the knowledge of all of the systems and can 
really just lay out for a survivor what their options are in an 
accurate and informed way I think is really very important.
    Chairman Whitehouse. Let us do a second round. I yield to 
Senator Blumenthal.
    Senator Blumenthal. Thanks very much, Mr. Chairman.
    I think that is a very apt and articulate description of 
the way the process can work, ideally, if the survivor chooses 
to go to the criminal justice system, but not all survivors may 
have the decisiveness that this woman evidently did. So I 
wonder what you tell women--let us talk about women because 
they are the majority of victims or survivors--about the 
consequences, the timetable? Do you encourage them to go to the 
criminal justice system?
    Ms. Fleischer. Again, we are going with what they would 
like. I feel as though I can very comfortably recommend law 
enforcement to them and if what they are disclosing to me I 
know to be a crime in Oregon statute, I am informing them of 
that.
    Senator Blumenthal. Do you have an obligation to report 
that crime?
    Ms. Fleischer. I do not. One of the things that is really 
important about the You Have Options Program with law 
enforcement is that they are taking delayed reports so there is 
no timeframe within which somebody has to report and they then 
will not take a report. They will take them.
    On campus, we have worked with students in the Title IX 
process who have reported in a delayed way as well. And it is 
true that there is no longer any physical evidence when a delay 
has been made, but there are other kinds of evidences that can 
still be collected. So I would say sort of cautiously, yes, I 
recommend law enforcement. Mostly I am wanting to do what they 
would like.
    But again, in partnership with the You Have Options 
Program, most people--I had mentioned that 76 percent of our 
students who are reporting crimes have interaction with law 
enforcement. So most students, because they can give an 
information only report to law enforcement, are at least 
exploring that option and then our police department has the 
name and information of these offenders.
    What I will just say, finally, most survivors, if they are 
not willing to go forward for themselves, for their own 
process, if they learn that there is somebody else who was 
offended against by the same person, they are much more willing 
to do that. So again, just giving the information to law 
enforcement in the first place is highly valuable.
    Senator Blumenthal. I think that is a very important point, 
that survivors can be persuaded at least to provide the 
information even if they do not pursue a prosecution in the 
event that the assailant does it again, then they may want to 
proceed to corroborate or to pursue a second case against the 
same person. I have heard that also on various campuses in 
Connecticut, that survivors may be more willing to come forward 
and may want forensic evidence to be preserved. By the way, you 
said that it would not be available if they did not pursue the 
criminal prosecution, but if they go to a hospital, there is 
likely to be forensic evidence and it can be preserved even if 
they do not pursue it at that point.
    I want to shift to an area that was raised at the close of 
the testimony offered by--the response to my question to Ms. 
Langhammer, the transfer process and student records--I am sure 
you followed, even though it was on another coast, the 
experience recently, again, tragically and unfortunately at the 
University of Virginia, the murder of Hannah Graham by an 
accused individual, Jesse Mathews, Jr., who has been 
apprehended and who evidently committed various offenses at 
other schools and his records were not transferred to schools 
when he was transferred. I think I am probably putting it over 
simplistically, but a essentially schools where he went were 
not informed of bad experiences involving him at prior schools 
which would have been useful to them.
    And your testimony states that if a student is found 
responsible and is expelled, that student could move to another 
school and offend again. We know that most rapes are committed, 
as we observed here just now, by a few repeat offenders. So, 
unfortunately, that is not only a possible outcome, it may well 
be a probable outcome.
    You mentioned that academic records are protected which 
prevents the school from which the student has transferred from 
sharing that information, and I assume you are talking about 
FERPA, which actually does allow schools to disclose records to 
other schools to which a student is transferring under some 
instances. So FERPA may have a chilling effect in practice, but 
the law has a specific exception for this purpose. 
Unfortunately, schools tend not to disclose the information 
unless they are asked, which is a barrier.
    So, I wonder if you could tell me, and maybe Chief Zoner 
may have some insight on this, whether Cornell or Southern 
Oregon University have a policy for asking schools from which a 
student is transferring about the reason for their dismissal, 
their leaving the school, if it is in their record? I know that 
is kind of a long-winded question, but I would broaden it to 
all three of the members of this panel. I hope you understand 
what the question is.
    Chief Zoner. I think I understand what the question is. To 
the best of my knowledge, yes, Cornell in its transfer 
procedures to look into students not only academic records but 
also behavioral records as well.
    Senator Blumenthal. And ask for those records of the school 
from which a student is transferring?
    Chief Zoner. Correct. As far as I know.
    Senator Blumenthal. Thank you. Your school, Ms. Fleischer?
    Ms. Fleischer. I am not entirely clear on the process. To 
the best of my knowledge, we do as well.
    Senator Blumenthal. Ms. Langhammer, do you know----
    Ms. Langhammer. [Off microphone.] I know of instances that 
you are referring to where there was actually a college in 
Rhode Island, Providence College, where someone transferred to, 
I believe it was Oregon, and just the very situation you are 
describing. So, I think that definitely needs some attention in 
the legislation. I would really recommend that. I think that is 
a great point you are bringing up, Senator.
    Senator Blumenthal. When you think about it it is so 
critically important because a school may be really happy to 
get rid of a rapist. They cannot deal with the proof, the 
student does not want to pursue it in the criminal justice 
process, but there is a rapist on campus, a serial predator and 
if he is gone, the school says well we have done our job. We 
got rid of him. And then he is on to another school.
    So really schools ought to be asking this question when 
someone comes to them, especially if there is some potential 
disciplinary problem involved in the original school, what was 
the reason? Did it involve sexual assault? Because they can 
protect a whole lot of students on their own campuses if they 
simply asked this question which is very much permissible under 
FERPA. It is not precluded for a school to ask that question 
and so I think it behooves schools around the country to be 
somewhat more inquisitive and responsible.
    The long-winded preface to my question indicates that it 
seems like a technical issue, but it has real consequences. 
Thank you Mr. Chairman.
    Chairman Whitehouse. Let me ask a few more questions. We 
are running a little short on time, so I invite Chief Zoner and 
Ms. Langhammer to supplement their answers for the record in 
writing afterwards. But I want to touch on a couple of things.
    The bill encourages--requires universities to develop a 
memorandum of understanding with local law enforcement. Chief 
Zoner, you suggested that a memorandum of understanding, for a 
memorandum of understanding's sake, may not be the best way, 
that there are ``better, less costly and more balanced 
alternatives.'' In order to have the legislation not have 
wiggle room were colleges and universities can get away with 
doing nothing, how would you recommend that we expand the 
requirement or redefine the requirement, to make sure we are 
achieving what I think we all recognize we should achieve if a 
memorandum of understanding is not the exactly pertinent term?
    Chief Zoner. I want to clarify I think memorandums of 
understanding can be very helpful and very useful in many 
situations. One of the concerns that I have is, different 
campuses have different levels of security and or law 
enforcement available to them in their own construct and then 
may have a single agency or multiple agencies that are 
responsible, governmental agencies on the outside.
    So when you look at the memorandum of understanding as the 
only tool by which you are going to communicate, it takes a 
great amount of effort in a lot of cases to make sure that 
those are signed. And again, I am going to reiterate that 
governmental agencies have absolutely no obligation. You can 
sign anything you want and there is no repercussions for 
someone who does not engage in the behavior that the memorandum 
is there. So the institutions can be left floundering with good 
intent to try to make things happen.
    In addition, the law enforcement agencies on campus are 
also responsible employees so they have to report and start 
that Title IX clock ticking. So it is a different relationship 
than what my colleague described over here. So we have a lot of 
different levels of security and law enforcement on campus. We 
have a lot of different interactions with different agencies 
on-campuses and off-campuses and encouraging people to reach 
agreements is definitely a best practice whether it is through 
a MOU or through other methodologies by hosting conferences 
that get local law enforcement together on a regular basis, 
opening up information and database sharing so we are all 
sharing the same information amongst each other so that we can 
talk intelligently amongst each other and share that 
information, providing records management systems, bridges and 
gaps so our information can be on some level even automatically 
shared so a system can be flagged across governmental and 
campus information for criminal activity would all be very good 
places to invest time and money.
    Chairman Whitehouse. You mentioned that your law 
enforcement officers are ``responsible officials,'' a term of 
art under Title IX that triggers the Title IX clock to begin to 
run and you mentioned in your testimony that delay in Title IX 
investigations is not allowed even when law enforcement is on 
the case. Are there hallmarks of a case or of a law enforcement 
investigation that would justify some degree of flexibility in 
pursuing the Title IX path so that there is not interference 
with the law enforcement path, particularly the investigative 
part of the Title IX path? Obviously, the Title IX path with 
respect to the quality of life and the protection of the 
student and all of that sort of student life management piece 
cannot be stopped, but has it been a problem for you to have 
two investigations basically taking place with the same 
witnesses at the same time and bumping into each other?
    Chief Zoner. Yes, it has been problematic and thankfully we 
have a very good relationship with our on-campus judicial 
administrators in working with us as we are working with the 
district attorneys office as well. We do our best to navigate 
to support the victim throughout this and allow the victim to 
have the say in which direction it is going and what is 
emphasized.
    Certainly there are interest in the criminal proceedings to 
protect a potential future case because statute of limitations 
is much longer that would raise an eyebrow as administrative 
proceedings move forward. I do go into more detail in that 
written statement about what those concerns are.
    Chairman Whitehouse. Is it also possible for defense 
counsel representing an assailant to use the Title IX process 
to delay, degrade and inhibit the law enforcement 
investigation?
    Chief Zoner. Correct and actually I mentioned earlier, that 
is part of why we actually end up getting less cooperation in 
administrative proceedings because with a looming criminal 
case, people are reluctant to share information that may 
influence an outcome one way or the other.
    Chairman Whitehouse. Okay. Ms. Langhammer, you said 
something very interesting. You said so the question is not 
should colleges be mandated to report these crimes to the 
police, the question is how do we create a system where the 
victims choices are the priority and the process is designed to 
work in the best interests of the victim. What are the 
hallmarks of such a system?
    Ms. Langhammer. Well I think first accurate information, 
from the beginning. And I think, again, looking at the Ashland 
model I think having everyone present at the beginning so that 
a victim knows----
    Chairman Whitehouse. Prior to a commitment to go on a 
path----
    Ms. Langhammer. Right, informed choice. Here I am, law 
enforcement officer, this is what will happen if you go 
forward. We will still work closely with the university who is 
also sitting right here. This is the process you can expect if 
you go through this on campus. You also have the option to just 
tell me some basic information. I do not even have to use your 
name. You know, that is law enforcement speaking.
    So I think all of those options and keeping--that is what I 
mean about the victim being in the driver seat. I believe that 
with that kind of scenario--and I understand why many more 
victims choose to go forward because they do feel they are in 
charge and they do feel they have choices and they also feel 
like--we keep hearing again, and again how victims feel this 
timeframe is being thrown at them. They feel out of control.
    As you stated, Senator, it is another kind of out-of-
control lack of consent and re-victimization in a sense. So 
when we say a certain thing is not working, we think it is 
because it is not working in collaboration with all of the 
systems that need to be at the table and they need to work 
together. That is what a true MOU is. That is what a memorandum 
of understanding is. We believe they should be mandatory.
    We are developing them as we speak with all of the 
institutions in Rhode Island, Day One is. We are about to 
complete our first one and it has really been a give-and-take. 
We think this is important here at University X, we think this 
is important and we have been at the table with all of those 
folks, including their local law enforcement.
    So that is what I believe needs to happen in how we build 
an ideal system of response where the victim is a part of that 
team. It is not a dual approach. Okay, I am going to straddle 
this internal process and this law enforcement piece and here 
is a date I have to go to this and here is another date here 
and I have exams now. No--victims should be deciding how that 
entire process goes forward and should have her or his eyes 
open the entire time.
    Chairman Whitehouse. Final question, you spent many years 
in this area. You have been a great leader. You have, in 
particular spent many years dealing with the plague of domestic 
violence and domestic sexual assault. Are there lessons that we 
should take from the experience we have had? Is that a crime 
that has really kind of come out of the shadows and is now 
treated much more seriously and in which law enforcement is 
engaged with the advocacy community very effectively? Does that 
provide any models for this?
    Ms. Langhammer. You know, I think with both issues--and 
they often overlap, they really do. Many victims we see at Day 
One have also experienced severe domestic violence. I think the 
lessons are that--and like my colleague from Ashland addressed 
this--that we need to really listen to victims. We need to 
listen to what they are saying and we need to train our 
personnel law enforcement prosecution, anyone who is 
interacting with a victim in trauma-informed forensic 
interviewing so that they really learn to understand how that 
victim is impacted.
    In domestic violence we keep asking the question why does 
she stay? Why did she go back? And I think the more we learn to 
listen to what the victim experience is, the more as law-
enforcement, the more as university administrators, we will 
craft our approach to really be in tune with what the victim 
needs.
    Chairman Whitehouse. Very good words to end the hearing on. 
The record will stay open for an additional week. If anybody 
wishes to add anything to it, I very much appreciate not only 
the testimony of this panel of witnesses but the life's work 
that has led up to this testimony and made it so meaningful for 
all of us.
    I appreciate my seven colleagues who have participated in 
this hearing. For a Subcommittee hearing, that is a lot of 
attention particularly in the waning days of this Congress. 
Everybody is virtually wildly busy doing things. And I 
particularly want to recognize our incoming Chairman, Senator 
Grassley, and thank him for the positive and enthusiastic 
remarks that he made at the outset of the hearing and for his 
work with Senator McCaskill and others as they have put this 
bill together. So with that, we will adjourn and thank you very 
much.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]



                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
